           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION

  FOLLOW-UP: CONCURRENT TITLE II
       AND XVI BENEFICIARIES
    RECEIVING REPRESENTATIVE
    PAYEE AND DIRECT PAYMENTS

  August 2009        A-09-09-19019




 AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                           SOCIAL SECURITY
MEMORANDUM

Date:   August 20, 2009                                                               Refer To:

To:     The Commissioner

From:   Inspector General

Subject: Follow-up: Concurrent Title II and XVI Beneficiaries Receiving Representative Payee
        and Direct Payments (A-09-09-19019)


        OBJECTIVE
        Our objective was to determine whether the Social Security Administration (SSA) had
        improved its controls to prevent the direct payment of concurrent Title II1 and XVI2
        benefits to individuals who had been appointed a representative payee.

        BACKGROUND
        SSA pays benefits under Titles II and XVI of the Social Security Act. The Title II
        program provides benefits to retired and disabled workers, including their dependents
        and survivors.3 The Title XVI program provides payments to financially needy
        individuals who are aged, blind, or disabled.4

        Some individuals cannot manage or direct the management of their finances because of
        their youth or mental or physical impairments. Congress granted SSA the authority to
        appoint representative payees to receive and manage these beneficiaries’ payments.5
        A representative payee may be an individual or an organization. SSA selects
        representative payees for Title II and XVI beneficiaries when representative payments




        1
            The Old-Age, Survivors and Disability Insurance Program.
        2
            The Supplemental Security Income Program.
        3
            The Social Security Act, §§ 201-234, 42 U.S.C. §§ 401-434.
        4
            The Social Security Act, §§ 1601-1637, 42 U.S.C. §§ 1381-1383f.
        5
          We use the term “beneficiary” generically in this report to refer to both Title II beneficiaries and Title XVI
        recipients.
Page 2 - The Commissioner


would serve the beneficiaries’ interests. Representative payees are responsible for
using benefits in the beneficiary’s best interests.6

Individuals who apply for Title XVI payments must apply for other program benefits,
including Title II benefits.7 For Title II benefits, individuals must apply under their own
Social Security number (SSN) and/or under another’s SSN to receive child or spousal
benefits.8 SSA policy states that one representative payee is appointed for all benefits
to which the beneficiary is entitled.9

Our 2006 audit10 found that SSA needed to improve its controls to prevent the direct
payment of concurrent benefits to individuals who had been appointed a representative
payee. Specifically, we identified 11,399 concurrently entitled beneficiaries who
received an estimated $166 million in direct payments while representative payees also
received $175 million in payments on behalf of these beneficiaries. Our prior report
included several recommendations for corrective action.

In response to our prior recommendations, SSA completed a match between the Master
Beneficiary (MBR) and Supplemental Security Records (SSR)11 in June 2006 to identify
concurrently entitled beneficiaries being paid directly and through a representative
payee. Additionally, SSA modified the Representative Payee System (RPS) to prevent
the selection of different payees for concurrently entitled beneficiaries.

There are approximately 588,000 individuals with representative payees who are
concurrently eligible for Title II and XVI benefits. In October 2008, we conducted a
match of SSA’s records and identified 9,276 concurrently entitled beneficiaries who
were likely receiving their benefits directly and through a representative payee.

RESULTS OF REVIEW
SSA’s corrective actions had improved its controls to prevent the direct payment of
concurrent benefits to individuals who had been appointed a representative payee.
Specifically, we found that SSA’s match of the MBR and SSR had reduced the number
of individuals who had been receiving their benefits through conflicting payment
methods. In addition, SSA modified RPS to prevent the selection of different payees for
6
 The Social Security Act, §§ 205(j) and 1631(a)(2), 42 U.S.C. §§ 405(j) and 1383(a)(2); see also,
20 C.F.R. Parts 404, Subpart U, and 416, Subpart F.
7
    SSA, Program Operations Manual System (POMS), SI 00510.001.B.4.
8
    SSA, POMS, SI 00510.005.B.1.
9
    SSA, POMS, GN 00502.183.B.4.
10
  SSA OIG, Concurrent Title II and Title XVI Beneficiaries Receiving Representative Payee and Direct
Payments (A-09-05-15144), April 2006.
11
  The MBR is an electronic file of all Title II beneficiaries. The SSR is an electronic file of all Title XVI
recipients.
Page 3 - The Commissioner


concurrently entitled beneficiaries. However, we found that SSA staff could bypass
RPS and establish direct payments for concurrently entitled beneficiaries who had
representative payees, and did not always resolve conflicting representative payment
information for concurrently entitled beneficiaries.

Based on our review of a random sample of 200 concurrently entitled beneficiaries who
were receiving their benefits directly and through representative payees, we estimate
that about 7,931 beneficiaries received approximately $43.6 million in direct payments,
and their representative payees received about $59.4 million on their behalf. Further, if
SSA does not determine whether the 7,931 concurrently entitled beneficiaries should be
paid directly or through a representative payee, we estimate that approximately
$56 million in additional benefit payments will be paid over the next 12 months. This
includes approximately $24.7 million that will be paid directly to beneficiaries (see
Appendix C).

Concurrent Payments Made to Beneficiaries and Representative Payees

SSA policy12 states that all adult beneficiaries are presumed competent to manage or
direct someone else to manage their benefits unless there is evidence to the contrary.
If doubts arise regarding beneficiaries’ ability to manage or direct the management of
their funds, SSA will determine their capability. In addition, legally incompetent
beneficiaries should be appointed a representative payee, as should children under
age 18.13 When concurrently entitled beneficiaries are determined incapable, one
representative payee should be appointed for both benefits.

Of the 200 concurrently entitled beneficiaries in our sample, we found that
17114 (85 percent) were receiving 1 benefit directly and 1 through a representative
payee. The total amount paid to, and on behalf of, these beneficiaries was
approximately $2.2 million. Projecting our results to the population of
9,276 beneficiaries, we estimate SSA paid benefits totaling about $103 million to
approximately 7,931 beneficiaries (see Appendix C). The following chart includes the
payments made to the beneficiaries and their representative payees.




12
     SSA, POMS, GN 00502.010.
13
     SSA, POMS, GN 00502.005.A and GN 00502.070.A.
14
   For 30 of our 200 sample cases, the MBR and SSR contained some conflicting representative payee
information. However, our review found that the information was corrected by SSA in a timely manner or
did not result in a conflicting payment method.
Page 4 - The Commissioner


             Payments Made to Concurrently Entitled Beneficiaries
                                                  Paid to
                                             Representative
  Benefit Payments     Paid to Beneficiary        Payee           Total Paid
  Amount Paid                             $941,004         $1,280,979       $2,221,983

  Average Payment                            $5,503              $7,491          $12,994

  Estimate for Population              $43,643,779        $59,411,813     $103,055,592

Effectiveness of SSA’s MBR and SSR Match to Correct Payment Discrepancies

In response to our prior audit, SSA conducted a match between the MBR and SSR in
June 2006. The match identified 17,622 concurrently entitled beneficiaries being paid
directly and through a representative payee. In addition, SSA provided its employees
instructions to resolve the discrepancies and determine whether the beneficiaries were
capable of managing their benefits.

Based on our sample analysis from the population of 9,276 concurrently entitled
beneficiaries, we concluded that SSA’s match was generally effective in identifying and
resolving these cases. Specifically, we found that only 18 (11 percent) of the
171 payment discrepancies were not identified or corrected by SSA’s June 2006 match.
However, 153 (89 percent) of the 171 payment discrepancies occurred after SSA’s
match operation. The following chart shows the number of beneficiaries with payment
discrepancies who were not identified or corrected by SSA’s match and the number of
new occurrences since SSA’s match.

              Payment Discrepancies Before and After SSA Match
                                                Number of      Percent of
  Description                                 Beneficiaries Beneficiaries
  Payment Discrepancy Not Identified or Corrected by
  SSA’s Matching Operation                                 18               11
  Payment Discrepancy Occurred After SSA’s
  Matching Operation                                       153              89

  Total                                                    171             100

For example, in one case, SSA appointed a representative payee to receive a
beneficiary’s Title XVI payments. In June 2000, the beneficiary became eligible for
Title II benefits. However, SSA did not appoint a representative payee to receive the
Title II benefits. Consequently, from June 2000 to December 2008, the beneficiary
received $23,983 in direct payments, and the representative payee received $36,544 on
the beneficiary’s behalf.
Page 5 - The Commissioner


Representative Payee Information Not Entered in RPS

RPS was developed as a result of legislation15 requiring that SSA more thoroughly
investigate individuals applying to be representative payees and establish a centralized
database of information about representative payees. RPS contains data about
representative payee applicants, beneficiaries in each representative payee’s care, and
the relationship between the representative payees and the beneficiaries they serve. It
provides SSA employees with immediate access to vital information about
representative payees, which assists them in making representative payee decisions.
In addition, SSA employees are required to document all entitlements to which a
beneficiary is eligible in RPS.16 Finally, SSA policy states that one representative payee
is appointed for all benefits to which a beneficiary is entitled.17

In response to our prior report, SSA modified RPS to prevent the direct payment of
concurrent benefits to individuals with representative payees. However, if SSA staff
does not enter necessary representative payee information in RPS, it will not prevent
the direct payment from occurring. Our review found that 88 of the 171 beneficiaries
with payment discrepancies had no representative payee information in RPS for either
the Title II or XVI entitlements. In those instances, the representative payee information
was only recorded in SSA’s payment records (that is, MBR or SSR). As a result, RPS
could not prevent the payment discrepancy from occurring.

For example, in March 2002, SSA appointed a representative payee to receive a
beneficiary’s Title II benefits. Information about the representative payee was recorded
on the MBR and in RPS. The beneficiary subsequently became entitled to Title XVI
payments in March 2008. At that time, SSA staff did not review the beneficiary’s MBR
or RPS and therefore was not aware SSA had previously determined the beneficiary
was incapable of managing his benefits. Furthermore, since the beneficiary’s Title XVI
entitlement was not entered into RPS, it did not prevent the direct payment of benefits to
the beneficiary. Consequently, from March to December 2008, the beneficiary received
$3,813 in direct payments, and the representative payee received $4,618 on the
beneficiary’s behalf.

Conflicting Representative Payee Information in SSA’s Records Was Not
Resolved

We found that SSA had partially processed representative payee selections for 57 of
the 171 beneficiaries with payment discrepancies in our sample. In these cases, SSA
had determined the 57 beneficiaries needed a representative payee; however, the
selections were not finalized because of conflicting information in SSA’s systems. For

15
  Omnibus Budget Reconciliation Act of 1990, Public Law 101-508 § 5105; see also the Social Security
Act §§ 205(j)(2) and 1631(a)(2)(B), 42 U.S.C. §§ 405(j)(2) and 1383(a)(2)(B).
16
     SSA, POMS, GN 00502.110 B.2.
17
     SSA, POMS, GN 00502.183.B.4.
Page 6 - The Commissioner


example, a selection could not be finalized because the type of payee (for example,
mother, son, individual, organization) on the MBR or SSR did not agree with the type of
payee information in RPS. RPS maintains data on pending cases, and SSA staff is
required to review RPS at least monthly to identify and resolve these cases. However,
we found that the 57 partially processed representative payee selections in our sample
had been pending for an average of 14 months.

For example, a beneficiary entitled to Title II benefits since January 1988 became
entitled to Title XVI payments in October 1988. In September 2006, SSA appointed a
representative payee to receive Title II benefits on the beneficiary’s behalf. At the same
time, SSA approved the representative payee for the Title XVI payments; however, RPS
did not complete the payee appointment. As a result, the beneficiary continued to
receive Title XVI benefits directly. Consequently, the beneficiary received direct
payments of $2,466 while the representative payee received $6,702 from October 2006
through December 2008.

Impact of Concurrent Benefits Paid to Representative Payees and Beneficiaries

SSA is responsible for determining whether beneficiaries are capable of managing their
own funds or directing someone else to manage their funds. Making payments to
representative payees for beneficiaries who are capable deprives the individuals of
financial independence to determine how their benefits are spent. Conversely, if SSA
pays incapable beneficiaries directly, their basic needs (food, clothing and shelter) may
not be met.

Furthermore, when SSA is unaware of the conflicting payment methods, not all benefit
payments, conserved funds, and other financial resources may be included in the
annual Representative Payee Report. Representative payees are required to provide
SSA this Report to account for how they spent and conserved benefits.18 SSA requires
a single Representative Payee Report to account for all benefits paid to concurrently
entitled beneficiaries.19 SSA uses the Report to determine whether beneficiaries
exceeded the resource limit20 under the Title XVI program.




18
     SSA, POMS, GN 00605.001 A. and B.1.
19
     SSA, POMS, GN 00605.001 A.
20
  Generally, Title XVI recipients cannot have over $2,000 in resources; a married beneficiary is limited to
$3,000. Recipients who exceed the resource limit are not eligible for Title XVI. POMS, SI 01110.003, A.
Page 7 - The Commissioner


CONCLUSION AND RECOMMENDATIONS
SSA’s corrective actions have resulted in improvement in its controls to prevent
concurrent Title II and XVI beneficiaries from receiving representative payee and direct
payments. However, since SSA has not conducted additional matching operations,
153 (89 percent) of the 171 beneficiaries with payment discrepancies started receiving
their benefits directly and through a representative payee after June 2006.

We recommend that SSA:

1. Conduct periodic matches and/or develop systems alerts to identify and correct
   instances in which concurrent payments are made directly to beneficiaries and
   representative payees.

2. Remind SSA staff to use RPS when processing representative payee actions and to
   review the MBR/SSR to verify whether beneficiaries are concurrently entitled when
   making representative payee determinations.

AGENCY COMMENTS
SSA agreed with our recommendations. The Agency’s comments are included in
Appendix D.


                                                S
                                                Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms

APPENDIX B – Scope and Methodology

APPENDIX C – Sampling Methodology and Results

APPENDIX D – Agency Comments

APPENDIX E – OIG Contacts and Staff Acknowledgments
                                                             Appendix A

Acronyms
C.F.R.      Code of Federal Regulations
MBR         Master Beneficiary Record
OIG         Office of the Inspector General
POMS        Program Operations Manual System
RPS         Representative Payee System
SSA         Social Security Administration
SSN         Social Security Number
SSR         Supplemental Security Record
Title II    The Old-Age, Survivors and Disability Insurance Program
Title XVI   The Supplemental Security Income Program
U.S.C.      United States Code
                                                                      Appendix B

Scope and Methodology
We obtained an extract from the Master Beneficiary (MBR) and Supplemental Security
Records (SSR) of concurrently entitled beneficiaries who were likely receiving both
representative payee and direct payments. We identified 9,276 concurrent beneficiaries
who potentially had conflicting payment methods as of October 1, 2008. From this
population, we randomly selected a sample of 200 beneficiaries for review.

To accomplish our objective, we

•   reviewed applicable Federal laws and regulations, as well as the Social Security
    Administration’s (SSA) Program Operations Manual System;

•   interviewed SSA staff from the Office of Income Security Programs; and

•   selected a random sample of 200 concurrent beneficiaries and obtained queries
    from SSA’s MBR, SSR, and Retirement Survivors and Disability Insurance Payment
    History, Treasury Check Information System, as well as the Representative Payee
    System.

We determined the computer-processed data from the MBR and SSR systems were
sufficiently reliable for our intended use. We conducted tests to determine the
completeness and accuracy of the data. These tests allowed us to assess the reliability
of the data and achieve our audit objectives.

We evaluated the adequacy of SSA’s controls to prevent the direct payment of
concurrent benefits to individuals who had been appointed a representative payee.
Specifically, we determined whether the interface between the MBR and SSR identified
situations in which benefit payments were paid both directly and to representative
payees for concurrently entitled beneficiaries. The amounts reported represent the total
benefit payments made to and on behalf of the concurrent beneficiaries from May 2006
through December 2008.

We performed our audit work in Richmond, California, between December 2008 and
March 2009. The entity audited was SSA’s Office of Income Security Programs under
the Deputy Commissioner for Retirement and Disability Policy. We conducted this
performance audit in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe the evidence obtained provides
a reasonable basis for our findings and conclusions based on our audit objectives.
                                                                                 Appendix C

Sampling Methodology and Results
On October 1, 2008, we obtained a data extract from the Social Security
Administration’s (SSA) Master Beneficiary and Supplemental Security Records of
concurrent beneficiaries with potential conflicting payment methods. The concurrent
beneficiaries were in current pay status and were likely receiving both representative
payee and direct payments.

We randomly selected 200 concurrently entitled beneficiaries for review. For each
sample item, we determined whether the conflicting payment methods existed and
computed the amounts paid to, and on behalf of, the beneficiaries from May 2006
through December 2008.

Of the 200 concurrently entitled beneficiaries in our sample, we found that
171 beneficiaries received $941,004 in direct payments while representative payees
received $1,280,979 on behalf of the beneficiaries.1

Projecting these results to our population of 9,276 concurrently entitled beneficiaries, we
estimate SSA paid about 7,931 beneficiaries approximately $43.6 million in direct
payments while their representative payees received about $59.4 million. Further, if
SSA does not resolve whether the 7,931 concurrent beneficiaries should be paid
directly or through a representative payee, we estimate that additional benefit payments
totaling approximately $56 million will be paid over the next 12 months. This includes
approximately $24.7 million that will be paid directly to beneficiaries. These estimates
are based on the monthly benefit paid to the 146 beneficiaries who were still receiving
payments in December 2008. The following tables provide the details of our sample
results and statistical projections.

Table 1 – Population and Sample Size

                           Description                                Number of Beneficiaries
    Population Size                                                           9,276
    Sample Size                                                                 200




1
  For 30 of our 200 sample cases, the MBR and SSR contained some conflicting representative payee
information. However, our review found that the information was corrected by SSA in a timely manner or
did not result in a conflicting payment method.


                                                 C-1
Table 2 – Conflicting Payment Methods

                             Number of                                        Representative
   Description              Beneficiaries           Direct Payments               Payee
Sample Results                  171                     $941,004                $1,280,979
Point Estimate                7,931                  $43,643,779               $59,411,813
 Lower Limit                  7,496                  $38,451,616               $50,549,546
 Upper Limit                  8,291                  $48,835,943               $68,274,080
Note: All statistical projections are at the 90-percent confidence level.



Table 3 – 12-Month Estimate for Conflicting Payment Methods

                                                             Representative
    Description                Direct Payments              Payee Payments          Totals
Sample Results                     $532,541                     $675,696         $1,208,237
Point Estimate                  $24,699,259                  $31,338,792        $56,038,051
 Lower Limit                    $21,867,820                  $27,878,796
 Upper Limit                    $27,530,698                  $34,798,787
Note: All statistical projections are at the 90-percent confidence level.




                                                     C-2
                  Appendix D

Agency Comments
                                         SOCIAL SECURITY

MEMORANDUM


Date:     July 30, 2009                                                           Refer To: S1J-3

To:       Patrick P. O'Carroll, Jr.
          Inspector General

From:     James A. Winn /s/ Jo Tittel for
          Chief of Staff

Subject   Office of the Inspector General (OIG) Draft Report, “Follow-up: Concurrent Title II and XVI
:         Beneficiaries Receiving Representative Payee and Direct Payments” (A-09-09-19019)--
          INFORMATION

          Thank you for the opportunity to review and comment on the draft report. We appreciate the
          comprehensive work the OIG auditing team did on this report. Our response to the report
          findings and recommendations is attached.

          Please let me know if we can be of further assistance. Please direct staff inquiries to
          Candace Skurnik, Director, Audit Management and Liaison Staff, at (410) 965-4636.

          Attachment




                                                          D-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL DRAFT REPORT,
“FOLLOW-UP: CONCURRENT TITLE II AND XVI BENEFICIARIES RECEIVING
REPRESENTATIVE PAYEE AND DIRECT PAYMENTS” (A-09-09-19019)

Recommendation 1

Conduct periodic matches and/or develop systems alerts to identify and correct instances in
which concurrent payments are made directly to beneficiaries and representative payees (rep
payees).

Comment

We agree. We will perform periodic matches to identify the problem cases and take the
necessary corrective actions.

Recommendation 2

Remind staff to use the Representative Payee System when processing rep payee actions and to
review the Master Beneficiary Record/Supplemental Security Record to verify whether
beneficiaries are concurrently entitled when making rep payee determinations.

Comment

We agree. We will issue a reminder to staff of the appropriate procedures to follow when
processing rep payee actions and making rep payee determinations.




                                              D-2
                                                                     Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts

   James J. Klein, Director, San Francisco Audit Division

   Joseph I. Robleto, Audit Manager

Acknowledgments

In addition to those named above:

   Timothy E. Meinholz, Senior Auditor

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Staff Assistant at (410) 965-4518. Refer to Common Identification Number
A-09-09-19019.
                              DISTRIBUTION SCHEDULE


Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government Reform


Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions and
Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
